\

J"

s
\

No.

IN THE
SUPREME COURT OF THE UNITED STATES

BENJAMIN ROSS,

PETITIONER

VS.
UNITED STATES OF AMERICA,

RESPONDENT(s)

PROOF OF SERVICE
I, Benjamin Ross, do swear and declare that on this date, May jf
_____ , 2021,
as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION'FOR WRIT OF CERTIORARI on each party
to the above proceeding or that party's counsel, and on every other person re­
quired to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed and with first-class postage prepaid,
being sent to:
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Ave • * N.W • * Washington D.C. 20530-001
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on

A

II

, 2021

